Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




    NEW JERSEY’S MEDICAID
   EXPENDITURE CLAIM WAS
SUPPORTED BY ACTUAL RECORDED
        EXPENDITURES



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    James P. Edert
                                               Regional Inspector General

                                                       March 2013
                                                      A-02-10-01013
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                                INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved plan. Although the State
has considerable flexibility in designing and operating its Medicaid program, it must comply
with applicable Federal requirements.

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, provided fiscal relief to States to protect and maintain State Medicaid
programs in a period of economic downturn. For the recession adjustment period (October 1,
2008, through December 31, 2010), the Recovery Act provided an estimated $87 billion in
additional Medicaid funding based on temporary increases in States’ Federal medical assistance
percentage (FMAP). 1 Section 5000 of the Recovery Act provided for these increases to help
avert cuts in health care payment rates, benefits, or services and to prevent changes to income
eligibility requirements that would reduce the number of individuals eligible for Medicaid.
Section 5001 of the Recovery Act provided that a State’s increased FMAP during the recession
adjustment period would be no less than its 2008 FMAP increased by 6.2 percentage points and
that a State may receive an increase greater than 6.2 percentage points based on increases to its
average unemployment rate.

New Jersey Medicaid Program

In New Jersey, the Department of Human Services (the State agency) administers the Medicaid
program. The State agency uses the Medicaid Management Information System, a computerized
payment and information system, to process and pay Medicaid claims. For the quarter ended
December 31, 2008, the FMAP in New Jersey was 58.78 percent. 2

Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program

The State agency claims Medicaid expenditures on the Quarterly Medicaid Statement of
Expenditures for the Medical Assistance Program (Form CMS-64). The Form CMS-64 is the
accounting statement that the State agency, pursuant to 42 CFR § 430.30(c), must submit to
CMS within 30 days after the end of each quarter. This form shows Medicaid expenditures for

1
 The Education, Jobs, and Medicaid Assistance Act (P.L. No. 111-226) extended the recession adjustment period
for the increased FMAP through June 30, 2011.
2
    This percentage included a temporary increase of 8.78 percent due to the Recovery Act.

                                                           1
the quarter being reported and any prior-period adjustments. It also accounts for any
overpayments, underpayments, and refunds received by the State agency.

Pursuant to 42 CFR § 430.30(c), and the CMS State Medicaid Manual § 2005.2, the amounts
reported on the Form CMS-64 and its attachments must represent actual expenditures for which
all supporting documentation, in readily reviewable form, has been compiled and which is
available at the time the claim is filed. Further, claims developed on the basis of estimates are
not allowable.

Oversight of Quarterly Medicaid Statement of Expenditures

The CMS regional office conducts quarterly reviews of the Form CMS-64. During these
reviews, CMS regional office staff members review the accounting records that the State agency
used to support the Form CMS-64 and perform additional procedures in accordance with the
CMS Financial Review Guide for the Quarterly Medicaid Statement of Expenditures.

OBJECTIVE, SCOPE, METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claim for Federal reimbursement of
Medicaid expenditures was adequately supported by actual recorded expenditures.

Scope

The State agency claimed Medicaid expenditures totaling $2.2 billion ($1.3 billion Federal share)
for the quarter ended December 31, 2008. Our review covered 9 line items 3 on the Form
CMS-64 totaling $1,679,873,135 ($985,929,926 Federal share), or 77 percent of the State
agency’s claimed expenditures for the quarter.

Our objective did not require a review of the overall internal control structure of the State
agency. Therefore, we limited our review to the State agency’s procedures for accounting for,
documenting, and claiming Medicaid expenditures for the three selected lines containing
possible duplicate claims.

We conducted fieldwork at the State agency’s offices in Mercerville, New Jersey.




3
 The nine line items were: (1) Inpatient Hospital Services—Regular Payments, (2) Nursing Facilities Services,
(3) Intermediate Care Facility Services—Mentally Retarded: Public Providers, (4) Outpatient Hospital Services,
(5) Prescribed Drugs, (6) Clinic Services, (7) Medicaid Health Insurance Payments: Managed Care, and (8) Personal
Care Services, (9) Other Care Services.

                                                       2
Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws and regulations;

    •   interviewed CMS personnel responsible for monitoring the Form CMS-64 to gain an
        understanding of the process for submitting the Form CMS-64;

    •   obtained from CMS the Form CMS-64 submitted by the State agency for the quarter
        ended December 31, 2008;

    •   interviewed State agency officials to gain an understanding of State agency policies and
        procedures for accounting for, documenting, and reporting Medicaid expenditures on the
        Form CMS-64;

    •   gained an understanding of the systems used by the State agency for reporting Medicaid
        expenditures on the Form CMS-64;

    •   verified that the State agency applied proper FMAPs for current expenditures and
        adjustments;

    •   reconciled Medicaid expenditures claimed on the Form CMS-64 totaling $2.2 billion
        ($1.3 billion Federal share) to the State agency’s accounting records;

    •   reviewed supporting documentation for 9 line items on the Form CMS-64 totaling
        $1,679,873,135 ($985,929,926 Federal share);

    •   selected a stratified random sample of 60 claims each for 3 of the 9 line items to test for
        duplicate claims; 4 and

    •   discussed our results with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusion based on our audit objectives.




4
 We separated the sampling frame into the following three strata: Stratum 1 - Line 6 Outpatient Hospital Services,
2,532 paid claims totaling $299,065 ($175,790 Federal share); Stratum 2 - Line 7 Prescribed Drugs, 450 paid claims
totaling $51,337 ($30,176 Federal share); and Stratum 3 - Line 29 Other Care Services, 394,900 paid claims totaling
$7,734,649 ($4,546,427 Federal share).

                                                         3
                                  RESULTS OF AUDIT

The State agency’s claim for Federal reimbursement of Medicaid expenditures on the Form
CMS-64 was adequately supported by actual recorded expenditures. Therefore, we are making
no recommendations to the State agency.




                                            4
